                                                                 Memorandum
           u.s. Department of
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General

Subject:   ACTION: OIG Investigation - Alleged Cover-up of                     Dme: April 18, 2008
           Operational Errors at DFW TRACON

From:      Calvin L. Scovel III      ~. L. ~v'd;p;,\                         Reply to
                                                                             attn of:
           Inspector General

To:        The Secretary

           This presents our investigative findings and recommendations stemming from
           whistleblower allegations that management officials at the Federal Aviation
           Administration's (FAA) Dallas-Fort Worth (DFW) Terminal Radar Approach Control
           (TRACON) facility "covered-up" air traffic controller operational errors and
           deviations! by: (a) misclassifying them as pilot deviations2 or "non-events," and
           (b) failing to investigate and/or report suspected operational errors and deviations.
           The whistleblowers also expressed concern that DFW TRACON management's
           misclassification of operational errors/deviations may reflect an FAA-wide effort to
           keep the number of operational errors/deviations artificially low.

           FAA policy requires the management of each TRACON and other air traffic control
           facilities to investigate all suspected operational errors/deviations. Because

           1   An operational error occurs when an air traffic controller allows aircraft to come too close
               together. More specifically, an operational error occurs when less than 90% of the
               minimum separation standard between two or more aircraft, or an aircraft and
               terrain/obstacles, is met. For TRACON facilities, the minimum Instrument Flight Rule
               separation standard, with some exceptions, is 3 miles horizontally or 1,000 feet vertically.

               An operational deviation occUrs when an aircraft in airspace controlled by one air traffic
               controller encroaches upon, or flies into, airspace assigned to another controller without
               proper coordination.

           2   A pilot deviation occurs when the actions or inactions of a pilot result in the violation of a
               Federal Aviation Regulation""'(FAR). A pilot deviation mayor may not result in a loss of the
               minimum separation standard between two or more aircraft, or an aircraft and
               terrain/obstacles.

               Report No. CC-2007-083
                                                                                          2

operational errors/deviations are important indicators of air traffic safety, it is critical
that management thorougWy investigate and accurately report them, and take
appropriate action, including retraining or removing controllers, to address their causes
and prevent recurrence.

The above allegations, which were referred to you by the U.S. Office of Special
Counsel (OSC) on July 9 and July 19, 2007, were raised by three whistleblowers:
(1) Anne Whiteman, a senior DFW Control Tower supervisor; (2) a confidential DFW
TRACON employee; and (3) Don Craig, a retired DFW TRACON air traffic
controller. Ms. Whiteman and the confidential source identified multiple instances
where they assert DFW TRACON management misclassified operational
errors/deviations as pilot deviations or non-events. Mr. Craig cited several instances
where he asserted DFW TRACON operations supervisors failed to investigate
suspected operational errors/deviations.

You delegated investigation of these allegations to our office. If you accept the results
of our investigation, we recommend you transmit this report to the Special Counsel,
along with a statement of FAA corrective action in response to our findings and
recommendations.

EXECUTIVE SUMMARY

For the second time in three years, we have substantiated whistleblower allegations
that DFW TRACON management underreported operational errors/deviations -
creating, at a minimum, the appearance of cover-up. Our previous investigation
exposed a 7-year management practice at this TRACON of improperly investigating
and, therefore, underreporting operational errors. This time, we found that in response
to the fmdings and recommendations of our prior investigation, DFW TRACON
management went through the process of investigating suspected operational
errors/deviations, but routinely misclassified them as pilot deviations or non-events.
Although we found compelling evidence to conclude that the misclassifications were
intentional, we were unable to ascribe a specific motive to TRACON management for
doing so. Even if the evidence is not viewed as conclusive that TRACON
management engaged in deliberate misclassification, because they misclassified
operational errors (as pilot deviations) at a rate eight times that of other TRACONs
nationwide (25% vs. 3%, respectively), the only alternative is to conclude they were
negligent or incompetent.

In both of our investigations, we found a lack of proper oversight within FAA. In the
present case, failures by the local Quality Assurance function (which directly reports
to TRACON management) and the Headquarters-based Air Traffic Organization
(ATO)-Safety Service (responsible for ensuring implementation of corrective actions
from our first investigation) enabled DFW TRACON management to again

 Report No. CC-2007-083
                                                                                           3

underreport operational errors/deviations.. We did not, however, fmd that FAA senior
leadership, including the ATO-Terminal Service Vice President, was aware of DFW
TRACON management's misclassification, and thus underreporting, of operational
errors/deviations.

FAA must fmally take decisive and comprehensive action to preclude recurrence of
underreported operational errors at DFW TRACON. We have presented our fmdings
and recommendations in this matter to FAA's Acting Administrator. As detailed later
in this report, our recommendations to FAA include:

      •   Permanently change DFW TRACON management, as well as take appropriate
          administrative action for seven TRACON managers who bear responsibility for
          the misclassification, and thus underreporting, of operational errors/deviations. 3

      •   Require FAA's Air Traffic Safety Oversight Service (AOV, which resides
          outside ATO) to conduct comprehensive on-site, "no-notice" audits at DFW
          TRACON to ensure accurate, straightforward investigation and reporting of
          operational errors/deviations.

      •   Expedite deployment of the Traffic Analysis and Review Program (TARP), a
          state-of-the-art automated system that detects losses of separation, at the DFW
          TRACON.

      •   Remove the Quality Assurance function at all Air Traffic Control facilities from
          the supervision of facility management, due to an inherent conflict of interest
          which creates the potential for inaccurate reporting of operational
          errors/deviations.

      •   Conduct a top-to-bottom review of ATO-Safety's management, staffmg and
          processes to ensure it provides effective internal oversight for ATO.

      •   Consider appropriate administrative action for two ATO-Safety officials, whose
          failure to carry out proper follow-up reviews following our initial investigation
          enabled TRACON management to again underreport operational
          errors/deviations.


3   Relative to administrative action consideration, we note that as a result of our prior
    investigation, FAA placed the TRACON Manager and two of the three Operations
    Managers on performance improvement plans (called "Opportunity to Demonstrate
    Performance") for failing to abide by FAA policy regarding investigating and reporting
    operational errors.


    Report No. CC-2007-083
                                                                                            4

Although unreported operational errors at DFW TRACON constitute a safety
deficiency that must be wholly remedied, we note that there have been no serious
accidents at DFW International Airport (the third-busiest airport in the world,
operating more than 1,900 flights daily and serving 60 million passengers a year) in
over ten years, and no accident has ever been attributed to a DFW air traffic
controller. 4

METHODOLOGY
The OIG-led investigative team was comprised of OIG senior investigators and an
aviation analyst/former air traffic controller; air traffic controllers and other technical
aviation experts from FAA's Air Traffic Safety Oversight Service (AOV)5; and a pilot
from FAA's Flight Standards Service.

We investigated the incidents identified by the whistleb10wers (occurring between
November 1, 2005, and June 3, 2007) where DFW TRACON management allegedly
misclassified 12 operational errors/deviations as pilot deviations or non-events. We
examined voice and radar data, as well as pertinent documents (e.g., Quality
Assurance Reviews 6), associated with each incident.

We also examined hundreds of hours of voice and radar data, as well as
documentation, for all pilot deviations reported by DFW TRACON from January 1,
2006, to July 13, 2007, to determine if any of those pilot deviations should have been
properly classified as an operational error or deviation. Additionally, we reviewed all
pilot deviation reports involving a loss of separation from other TRACONs nationwide




4   In October 2007, DFW International Airport received the Flight Safety Foundation's "2007
    Airport Safety Award."

5   AOV was established on March 14, 2005, by the FAA Administrator in response to
    recommendations made by the National Civil Aviation Review Commission and the
    International Civil Aviation Organization that air traffic service providers be subject to
    safety oversight by an FAA entity outside ATO. AOV has the full range of authority to
    develop or adopt safety standards and to ensure that ATO complies with those standards.
    AOV is part of FAA's Aviation Safety Organization, and provides independent oversight of
    the ATO in a manner structurally similar to FAA's oversight of air carriers.

6   A Quality Assurance Review (QAR) is conducted by TRACON management or Quality
    Assurance staff into an air traffic incident to determine whether controller performance,
    procedures and/or equipment may have contributed to, increased the severity of, or
    unreasonably failed to mitigate the incident.


    Report No. CC-2007-083
                                                                                              5

for the period March 1,2007 to July 13,2007, along with a sample of accompanying
radar and voice data, to determine if any of those pilot deviations were misc1assified. 7

We also examined the five suspected operational errors/deviations cited by Mr. Craig
to determine if DFW TRACON management investigated them as required by FAA
policy. We reviewed available voice and radar data, as well as documentation, for
these incidents. In order to determine if other suspected operational errors/deviations
had not been investigated, we reviewed a random sample of DFW TRACON voice and
radar data for the 45-day period that preceded the beginning of this investigation. s

Finally, we conducted over 60 interviews, including:

      •   Ms. Whiteman, the confidential source, and Mr. Craig;

      •   DFW TRACON air traffic controllers, supervisors, and managers;

      •   DFW Quality Assurance staff (current and former);

      •   FAA Central Region Service Center Safety Assurance managers and staff;

      •   FAA Headquarters Air Traffic Organization (ATO) - Safety Service, Acting
          Director of Investigations and Evaluations, and staff;

      •   DFW and Dallas Love Field Flight Standards District Office (FSDO) safety
          inspectors and managers;

      •   FAA ATO - Director of Terminal Safety; and

      •   FAA ATO - Vice President of Terminal Service.




7   Given the large volume of data to review and time and resource constraints, we limited the
    period of this specific review to March 1, 2007, through July 13, 2007 (the date our
    investigation commenced).

8   FAA policy requires retention of radar data for a minimum of 45 days; generally, the data is
    destroyed thereafter.

    Report No. CC-2007-083
                                                                                            6



DETAILS

Results of Our Prior Investigation

In February 2005, we reported to then-Secretary Norman Mineta that DFW TRACON
management routinely failed to investigate suspected operational errors/deviations that
occurred between March 2002 and June 2004. 9 We found the failure to investigate
operational errors/deviations resulted from the former TRACON Manager's practice,
begun in 1996, ofhaving supervisors rely on the word of controllers as to whether they
committed operational errors/deviations, and not following FAA policy requiring
formal investigation of suspected operational errors by use of "playback toolS.,,10

The fact that this systemic practice at DFW went undetected for so many years led us
to conclude that there was a marked lack of oversight by the TRACON's Quality
Assurance unit, whose primary function was to review investigations of suspected
operational errors conducted by facility management, and Regional and Headquarters
elements of FAA. We also concluded there was a lack of oversight by the succeeding
TRACON Manager. In fact, she told us she was unaware of her predecessor's practice
of restricting the use of playback tools. When we informed the TRACON Manager of
our [mdings, she said she felt responsible for not having provided adequate oversight,
and promptly issued a policy memorandum to her staff directing immediate use of
playback tools to investigate all suspected operational errors. Because the TRACON
Manager was relatively new to her position and maintained she was unaware of her
predecessor's improper practice, and in light of her issuance of a corrective policy, we
did not recommend that FAA pursue administrative action against her.

FAA also committed to other actions to remedy the deficiencies at the DFW
TRACON; e.g., the Quality Assurance Manager was replaced and FAA Headquarters'
ATO - Safety Evaluations committed to conduct no-notice reviews for two years to
assess whether managers investigated and accurately reported all suspected operational




9
      OIG Report #CC2004-067, "Alleged Cover-up of Operational Errors at DFW TRACON,"
      dated February 14, 2005. (Available on our website at www.oig.dot.gov - posted
      June 24,2005.)

10    Playback tools are software programs and other electronic instruments for recreating air
      traffic incidents by replaying recorded radar and voice data on standard desktop
      computers.


    Report No. CC-2007-083
                                                                                                 7

errors/deviations. l1 In 2005, FAA gave assurances that its oversight would not allow
DFW TRACON operational errors/deviations to go unreported. Clearly, as shown
below, FAA's actions and assurances were not effective in preventing unreported
operational errors/deviations at DFW TRACON.

Results of Our Most Recent Investigation

DFW TRACON management has again underreported controller operational
errors/deviations.

We found DFW TRACON management has continued to underreport controller
operational errors/deviations, this time by misclassifying them. In some instances,
instead of properly fmding the controller responsible for the loss of separation,
TRACON management wrongly faulted the pilot. In other instances, although
TRACON management properly cited a pilot as bearing responsibility for the loss of
separation, they failed to also properly identify the controller's responsibility. Finally,
in the remaining instances, TRACON management declared a "non-event," i.e., they
incorrectly concluded there was no loss of separation. 12

Specifically, we found:

     •   Between November 1, 2005, and July 13, 2007, DFW TRACON management
         misclassified 62 air traffic events as pilot deviations or non-events - consisting
         of 52 operational errors and 10 operational deviations. 13 Significantly,
         15 of these 52 operational errors (nearly 1 in 3) were serious Category "A" and




11   ATO-Safety is responsible for improving the safety of the air traffic control system by,
     among other things, investigating losses of separation between aircraft. ATO-Safety is
     required to review incidents and identify leading indicators (human, mechanical,
     procedural) or other safety hazards which may have contributed to the losses of
     separation.

12   Following TRACON investigation, each air traffic event is classified as: (a) a controller
     operational error or deviation; (b) a controller operational error/deviation and a pilot
     deviation; (c) a pilot deviation; or (d) a "non-event," i.e., the prescribed minimum
     separation between aircraft was maintained.

13   A list of these operational errors/deviations is appended to this report as Attachment 1.




 Report No. CC-2007-083
                                                                                             8

         "B" operational errors (3 and 12, respectively).14 These 62 misclassified events
         are further broken down as follows:

         - Of the 12 suspected operational errors cited by Ms. Whiteman and the
           confidential source, DFW TRACON management misclassified 10 as pilot
           deviations (when either no pilot deviation occurred or both an operational
           error and a pilot deviation occurred) and 2 as non-events.

         - DFW TRACON management misclassified 50 other operational
           errors/deviations I5 : 29 as pilot deviations (when, in fact, either no pilot
           deviation occurred, or both an operational error and a pilot deviation
           occurred) and 21 as non-events.

     •   Between January 1,2006, and July 13,2007,29% of pilot deviations involving
         a loss of separation reported by the DFW TRACON (37 of 129) were actually
         misclassified operational errors/deviations.

     •   From March 1, 2007, through July 13, 2007, we found that 25% of pilot
         deviations filed by DFW TRACON management (8 of 32) should have been
         properly classified as operational errors. In stark contrast, for the same time
         period, approximately 3% of pilot deviations reported by other TRACONs
         nationwide (14 of 533) should have been classified as operational
                   .'
         errors/deVlatlOns. 16




14   FAA categorizes operational errors by severity. Category "A" is the most severe; a
     "proximity event," formerly known as Category "D," is the least severe. A narrative
     describing the three Category "A" operational errors we found is at Attachment 2.

15   For the period January 1,2006, to July 13, 2007.

16   Given the large volume of data to review and time and resource constraints, we limited the
     period of this specific review to March 1, 2007, through July 13, 2007 (the date our
     investigation commenced).


 Report No. CC-2007-083
                                                                                                 9


Compelling evidence that DFW TRACON management intentionally misclassijied
operational errors/deviations.

     •   Culpable DFW TRA CON management and their typical investigative and
         reporting process

We identified seven managers at DFW TRACON who bear responsibility for the
rnisclassification and thus underreporting of operational errors/deviations:

         -   TRACON Manager
         -   Assistant TRACON Manager
         -   2 Quality Assurance Managers
         -   3 Operations Managers

We found that, typically, when a controller reported a possible operational
error/deviation or pilot deviation, the Operations Manager on duty investigated the
incident using voice and radar data and made an initial determination. If the
Operations Manager's initial determination was that the incident was an operational
error/deviation or pilot deviation, he met with the Quality Assurance Manager and
either the Assistant TRACON Manager or the TRACON Manager to review the
incident. Although either the Assistant TRACON Manager or the TRACON Manager
was responsible for the fmal determination, each of the seven managers told us that,
for each incident under review, the determination was reached by consensus among
the managers .17

When the Operations Manager's initial determination was that the incident was a non-
event, his determination was reviewed by the Quality Assurance Manager. If the
Quality Assurance Manager concurred, the investigation was closed without further
review by either the Assistant TRACON Manager or the TRACON Manager, although
the Operations Manager could, and did, consult with the TRACON Manager or
Assistant TRACON Manager, or both. Although the Assistant TRACON Manager
and TRACON Manager were not required by FAA policy or procedure to review
non-event determinations, they are nonetheless responsible, by virtue of their positions


17   Each TRACON's Quality Assurance Manager reports to the TRACON's Manager and
     Assistant TRACON Manager. The TRACON Manager and Assistant TRACON
     Manager, who have a vested interest in a low number of operational errors/deviations, are
     responsible for evaluating the Quality Assurance Manager's performance. Thus, the
     Quality Assurance Manager has an inherent conflict of interest between recommending a
     finding of an operational error/deviation to his or her supervisors and the possible effect of
     doing so on his or her performance evaluation.


 Report No. CC-2007-083
                                                                                         10

and the TRACON Manager's pnor commitment to stringent oversight, for their
accuracy.

In cases where the Quality Assurance Manager disagreed with the Operations
Manager's initial determination of a non-event and believed the incident was an
operational error/deviation or pilot deviation, or was uncertain that the incident should
be classified as a non-event, the Quality Assurance Manager reviewed the incident
with either the Assistant TRACON Manager or the TRACON Manager for fmal
determination.

     • Specijic evidence ofintentional misclassijication

We have concluded that a culture existed at the TRACON in which management's
goal was to avoid citing controllers with operational errors/deviations. Although we
were unable to ascribe a specific motive for such a goal, circumstantial evidence
described below indicates that DFW TRACON management's means for
accomplishing this goal entailed intentionally misclassifying operational errors/
deviations.

First, the Assistant TRACON Manager and an Operations Manager told us they
believed it was their job to find a way to avoid placing blame on the controller for a
loss of separation. In addition, a confidential source told us this was a general practice
at the facility. Despite their qualification to us that they meant fmding a way within
the rules, our investigation reflects the TRACON management's willingness to
manipulate evidence and render unreasonable determinations favorable to controllers,
but detrimental to aviation safety. For example, TRACON managers often
intentionally ignored the most relevant radar data when investigating a suspected
operational error/deviation. Specifically, they seleCted radar data from a sensor
showing aircraft separation greater than 1,000 feet or 3 miles, rather than data from the
sensor associated with the scope the controller was viewing at the time of the incident
(which often indicated a loss of separation). 18 Similarly, they closed investigations of
suspected operational errors as non-events after fmding that controllers and pilots were
in proper coordination with one another before the loss of separation occurred.
However, voice and radar data show that the coordination came after the loss of
separation. Given the obviousness of this data, management likely was - or should
have been - aware the incidents were, in fact, operational errors/deviations.




18   We learned that DFW's three radar sensors, which measure aircraft separation distance,
     can produce results that vary as much as 300 feet for the same air traffic event.


 Report No. CC-2007-083
                                                                                              11


Second, we found that each of the misclassified pilot deviations or non-events was
obviously an operational error/deviation. Because of this, we concluded it was not
reasonable for these seven experienced and knowledgeable managers to have
mistakenly reported the operational errors/deviations as pilot deviations or non-events.
In fact, FAA Central Region Service Center safety assurance investigators told us that,
in some instances, they advised the TRACON Manager, the Assistant TRACON
Manager and the Quality Assurance Manager that misclassified pilot deviations were,
in fact, obvious operational errors. TRACON management, they told us, ignored their
advice.

Third, DFW TRACON managers misclassified a substantially greater percentage of
operational errors as pilot deviations than their counterparts at other large TRACONs.
Specifically, 25% of the pilot deviations declared by DFW TRACON managers from
March through July 2007 should have been declared operational errors. At other large
TRACONs, 3% of the declared pilot deviations for that same period should have been
declared operational errors. 19 Because the percentage of misclassified pilot deviations
at DFW TRACON is 8 times greater than the percentage of misclassified deviations at
other TRACONs nationwide, we have concluded that DFW TRACON's
misclassifications cannot be attributed to mere mistake, especially in light of the other
evidence of intent cited above.

Lack ofproper FAA oversight following our prior investigation enabled TRACON
management to again underreport operational errors.

In response to our prior investigative fmdings and recommendations, FAA committed
to a number of actions to remedy the DFW TRACON deficiencies regarding the
investigation and reporting of operational errors/deviations. We found FAA failed to
carry out these critical commitments.

     • ATO's lack ofoversight

Following completion of our last DFW TRACON investigation in early 2005, senior
FAA officials, including the ATO-Tenninal Service Vice President, committed to


19   We are conducting an audit, initiated in November 2007, at the request of the House
     Committee on Transportation & Infrastructure, to: (a) determine whether FAA has
     adequate policies and procedures in place to ensure the accuracy of operational error
     reporting; and (b) review the roles and responsibilities of the ATO and Aviation Safety
     lines of business in reporting and investigating operational errors. Additionally, our audit
     is examining the incidence of operational errors misc1assified as pilot deviations at other
     air traffic facilities nationwide, the preliminary results of which are consistent with the
     finding in this investigation for other large TRACONs.

 Report No. CC-2007-083
                                                                                   12

remedying the deficiencies in operational error investigation and reporting at DFW
TRACON. Further, ATO-Safety was tasked with conducting "no-notice" reviews of
the DFW TRACON for two years. This meant, among other things, that ATO-Safety
officials would appear at the facility unannounced to assess whether suspected
operational errors were thoroughly investigated and accurately reported. We found,
however, ATO-Safety's last no-notice review of the DFW TRACON occurred in June
2005. Since then, ATO-Safety officials have randomly reviewed DFW TRACON
radar data for operational errors from their offices in Washington and Boston and only
required DFW TRACON management to complete a "Facility Self-Assessment"
worksheet. Not surprisingly, TRACON management reported the facility was in
"100% compliance" with the operational error investigation process. ATO-Safety
officials did not, however, attempt to verify DFW TRACON's self-assessment, and
they provided reports to ATO-Terminal, as well as our office, that operational errors
were being properly investigated and reported at DFW TRACON.

Moreover, part of ATO-Safety's mission is to review loss-of-separation events,
including pilot deviations and operational errors/deviations, at all TRACONs to
determine if significant safety issues exist. ATO-Safety has asserted that because it
had an insufficient number of investigators prior to March 2007, as few as two at
times, it could not adequately review pilot deviations.. According to statements we
received from current ATO-Safety investigators, they still do not review controller
operational deviations.

We have concluded that primary responsibility for ATO-Safety's oversigh{ failures at
DFW TRACON rests with one investigator (who later assumed the role of Acting
Director) and the then-Acting Director (later assuming the position of Acting Vice
President of ATO-Safety). We found no evidence, however, that they deliberately
failed to conduct no-notice reviews or examine pilot deviation reports.

We did not fmd evidence that FAA senior leadership, including the ATO-Terminal
Service Vice President and the ATO-Terminal Director of Safety, had awareness of
DFW TRACON management's misclassification, and thus underreporting, of
operational errors/deviations. The ATO-Terminal Vice President told us they relied on
the representations of ATO-Safety that operational errors at DFW TRACON were
being properly investigated and reported. Nonetheless, we believe the ATO-Terminal
Service Vice President and ATO-Terminal Director of Safety carry some level of
responsibility for the misclassification of operational errors/deviations at DFW
TRACON by virtue of their ATO leadership positions, and the ATO-Terminal Service
Vice President's commitment to correcting the deficiencies at the TRACON identified
in our prior investigation.




 Report No. CC-2007-083
                                                                                            13


     • Southwest Region FSDOs did not independently validate TRACON;.declared
       pilot deviations

To recap, we found DFW TRACON management misc1assified 39 operational errors
(10 identified by Ms. Whiteman and the confidential source, and 29 others we
identified20 ) as pilot deviations 21 - when, in fact, either no pilot deviation occurred, or
both an operational error and a pilot deviation occurred. Although each of these 39 air
traffic events involved a controller operational error, some may have also involved a
pilot deviation.

Pursuant to FAA policy, DFW TRACON management reported the 38 above-
referenced pilot deviations to the FAA Southwest Region's DFW and Dallas Love
Field FSDOs for independent validation that pilot action caused the loss of separation
and, if appropriate, for initiation of compliance/enforcement action against the
responsible pilot. The FSDO inspectors told us they sometimes relied solely on the
TRACON's determination that a pilot deviation occurred. In particular, they did not
review DFW TRACON pilot deviation reports when the airline employing the pilot in
question participated in the Aviation Safety Action Partnership (ASAP) program. 22
Instead, FSDO inspectors presumed that the TRACON's pilot deviation report was
accurate and then, despite the fact that the ASAP program is intended for pilots to se1f-
report violations, forwarded the form documenting the pilot deviation to the
appropriate FAA Certificate Management Office (CMO) for review by ASAP
officials.

If ASAP program officials found there was a pilot deviation, they could initiate
corrective measures, but not punitive action against the pilot. If they determined the
loss of separation was not caused by the pilot's actions, the matter was simply
dropped; it was not referred back to the DFW TRACON, via the FSDOs, for


20   See page 8 of this report.

21   One of the 38 pilot deviation reports contained two misclassified operational errors, thus
     the 38 reports contained a total of39 misclassified operational errors.

22   ASAP is a voluntary reporting program in which pilots employed by participating airlines
     can report any incident that may raise a safety concern, or any circumstances where safety
     might have been compromised, without fear of being subjected to an enforcement action.
     A team of representatives from the airline, the pilots' union, and FAA then review the
     event in order to determine possible violations or impact on aviation safety. The
     resolution of events reflects an emphasis on correcting the problems rather than punitive
     actions for pilots.


 Report No. CC-2007-083
                                                                                             14

reconsideration of a possible controller operational error to account for the loss of
separation. 23

If the airline employing the pilot in question did not participate in the ASAP program,
FSDO officials, in some instances, initiated compliance/enforcement action against the
pi10t. 24 However, because some of those "pilot deviations" were actually misc1assified
operational errors that did not involve pilot deviations, enforcement action may have
been unwarranted. We requested that AOV determine whether any unwarranted
enforcement action occurred. AOV found that although at least three pilots received
letters of warning or correction, no pilots were subjected to an enforcement action
(such as a proposed certificate suspension) as a result of an operational error
misc1assified as a pilot deviation.

We did not find evidence that DFW TRACON management mise/assified
operational errors/deviations in response to any direction from FAA senior leaders
or an FAA-wide policy. Nor did we find evidence that FAA's pay-for-performance
system contributed to TRACON management's misclassification.

We also investigated the whistleb10wers' concern that DFW TRACON management's
misc1assification of operational errors/deviations may reflect an FAA-wide effort to
keep the number of operational errors and deviations artificially low. As evidence of
such an effort, the whistleb10wers asserted: (a) since a June 2006 national meeting of
Air Traffic managers in Washington, DC, during which the topic of reducing
operational errors was discussed, the number of pilot deviations has increased; and
(b) in a June 2007 statement to the media, then-FAA Administrator Marion Blakey
stated that although air traffic controllers do commit operational errors or deviations,
"frequently it is the pilot, what we call a pilot deviation, a pilot error."

We found no evidence that then-Administrator Blakey or any other member of FAA
leadership directed, explicitly or implicitly, that Air Traffic managers underreport
operational errors/deviations. We interviewed five DFW TRACON managers and
several of our investigative team members from AOV who attended the June 2006
meeting, as well as smaller group follow-up meetings in 2007. Each told us that
although attendees and speakers discussed ways to pursue FAA's goal of reducing
controller operational errors, no FAA senior leader or, for that matter anyone else, said


23   In those instances where FSDO inspectors detennined that pilot action did not cause the
     loss of separation, we found no evidence they returned the loss of separation report to the
     TRACON to reconsider the air traffic event as an operational error.

24   Compliance-related action for a pilot includes letters of correction or warning.
     Enforcement action includes proposed pilot certificate (alk/a "license") suspension or
     revocation.

 Report No. CC-2007-083
                                                                                            15

anything that could be construed as policy or direction to underreport operational
errors/deviations.

Consequently, we found no evidence that any FAA-wide policy, express or implied,
directed Air Traffic managers to underreport operational errors/deviations. None of
the persons we interviewed knew' of any FAA policy or direction to suppress the
reporting of operational errors/deviations. In fact, if there was such a policy or
direction, other TRACONs likely would have misclassified operational
errors/deviations as pilot deviations at a rate similar to DFW. As previously
addressed, however, other TRACONs misclassified a significantly lower percentage of
operational errors/deviations as pilot deviations.

Finally, we found no evidence that FAA's pay-for-performance system contributed to
DFW TRACON management's misclassification of operational errors/deviations.
Moreover, it is unlikely that there is any evidence that FAA's pay-for-performance
system contributed to DFW TRACON management's cover-up of operational errors.

FAA utilizes a performance-based system for compensating executives and over
80% of employees. For employees covered by this system, their pay raise is based on
an organizational success increase (OSI). The DFW TRACON is just one of over
125 TRACONs nationwide and DFW employees constitute a small percentage of the
FAA employees covered by this system. Moreover, an OSI payout requires that FAA,
as a whole, meet at least 90%, or 27 out of 30, "Flight Plan Performance Targets" and
reduction of operational errors is but one of the 30 performance targets. Given the
above, the ability of employees at anyone facility to affect a single national
performance target, (e.g., operational errors), let alone 27 of 30, is negligible.

The Assistant DFW TRACON Manager improperly authorized controllers to apply a
specific procedure during "parallel final approaches," which caused operational
errors.

During the course of our investigation, we discovered 11 instances in which the
Assistant DFW TRACON Manager authorized controllers to apply a specific
procedure, intended to more efficiently control aircraft, which caused a loss of
separation. These 11 operational errors - not included in the 62 previously addressed
in this report - occurred while controllers handled two aircraft arriving at the same
time on parallel runways.

FAA Order 7110.65 requires a controller performing parallel [mal approaches to
ensure that both aircraft have completed a tum and are fixed on their "localizer,,25

25   A "localizer" is a beacon-type transmitter that provides runway centerline guidance to the
     pilot of an aircraft operating on an Instrument Landing System (ILS) approach.

 Report No. CC-2007-083
                                                                                      16

before allowing them to discontinue the 1000 foot vertical separation requirement and
begin their descent for landing. According to our AOV experts, DFW TRACON
controllers issued instructions to one or both pilots and failed to ensure the required
separation was maintained while the aircraft were turning toward the localizer. The
controllers, however, told our AOV experts that the Assistant TRACON Manager
authorized this procedure in order to more efficiently control aircraft.

The Assistant TRACON Manager asserted that a loss of separation was permissible
while executing this procedure and, as such, did not cause an operational error.
According to our AOV experts, however, this procedure clearly violated FAA policy,
thus constituting operational errors. Based on the obviousness of the violation, and
because of his knowledge and experience, we concluded the Assistant TRACON
Manager knew - or should have known - that the procedure he authorized was not
permissible.

We did not find evidence that DFW TRACON Operations Supervisors failed to
investigate five suspected operational errors/deviations. However, we found that an
Operations Manager, after investigation, misclassijied one ofthe incidents as a pilot
deviation when it should have been declared an operational error.

FAA Order 7210.56C requires that all system deficiencies be identified and corrected.
If a suspected loss of separation event is determined to be an operational error or
deviation, an initial investigation is required. This investigation is to determine what
occurred in the system, to ensure corrective action is initiated to maintain system
integrity, and to report significant events to higher levels of management.

Supervisors and Operations Managers begin a QAR by reviewing the data associated
with a suspicious event or system anomaly (as per FAA Order 7210.56). If the data
indicates a possible operational error or deviation, the QAR is closed and an initial
operational error or deviation investigation is begun.         (The operational error
investigation requires, in addition to review of voice and radar data, written controller
statements.) If the data does not indicate a possible operational error or deviation, the
QAR form is completed by the supervisor or Operations Manager and sent to the
Quality Assurance office for review. The Quality Assurance staff will review the
QAR and recommend actions or closure to the Quality Assurance Manager. The
Quality Assurance Manager reviews each QAR and either authorizes its closure or
directs subordinate staff to document the event as an operational error or deviation or
pilot deviation. The order also prescribes corrective actions to be taken by
management, including retraining responsible air traffic controllers, or removing them
from duty.

Mr. Craig alleged that, as part of a cover-up of operational errors, DFW TRACON
Operations Supervisors did not investigate five suspected operational errors and

 Report No. CC-2007-083
                                                                                        17

deviations that he reported. Specifically, he identified suspected operational errors
that occurred on September 4 and September 12, 2006, and suspected operational
deviations that occurred on July 4, August 11 and September 4, 2006.

We found that DFW TRACON management completed over 200 QARs during the
period of the five incidents in question, i.e., July 4,2006, through September 12,2006.
We found that an Operations Manager investigated the July 4, 2006, suspected
operational deviation, but closed it as a non-event. Our AOV experts, however, were
unable to verify that the incident was accurately reported as a non-event because the
corresponding radar data was destroyed, in compliance with FAA policy, 45 days after
the July 4 incident. We also found that this same Operations Manager investigated the
September 4, 2006, suspected operational error, and reported it as a pilot deviation on
the ground that the pilot did not respond quickly enough to the controller's instructions
to tum. However, our AOV experts determined the controller's instruction came too
late for the pilot to maintain 1000 feet of vertical separation from another aircraft and,
therefore, the incident should have been reported as an operational error, instead of a
pilot deviation.

The existence of QARs for the above two incidents indicates DFW TRACON
Operations Managers investigated them. We were unable to locate QARs for the other
three incidents; however, as shown below, this does not necessarily indicate the
incidents occurred and that DFW TRACON management failed to investigate them.

Mr. Craig stated he orally reported a suspected operational deviation to his supervisor
on August 11, 2006, though there was no witness to his report. However, the
supervisor told us he did not recall Mr. Craig making this report, and we found no
record of the report. Mr. Craig also stated he orally reported a suspected operational
error to this same supervisor on September 4, 2006. Again, there was no witness to his
report and we found no record of it. Moreover, the supervisor gave us travel receipts
showing he was not in Dallas that day. Finally, although Mr. Craig stated that a
supervisor witnessed a suspected operational error on September 12,2006, and did not
investigate it, he could not identify the supervisor for us, nor did he report the incident
himself. Given the above [mdings, we are unable to show the alleged incidents
occurred and, consequently, we are unable to show that DFW TRACON management
failed to investigate them.

Recommendations

This IS our second investigation confrrming underreported operational
errors/deviations at DFW TRACON within the last three years, creating, at a
minimum, the appearance of cover-up. Based on the gravity of our [mdings, we
consider it imperative that FAA take decisive, effective action to preclude recurrence
ofunderreported operational errors at DFW TRACON. Accordingly, as formalized in

 Report No. CC-2007-083
                                                                                      18

a memorandum to FAA's Acting Administrator dated Apri19, 2008, we recommended
that FAA:

1. Permanently change DFW TRACON management (foremost, the DFW TRACON
   Manager and Assistant TRACON Manager), as well as take appropriate
   administrative action for the seven TRACON managers, particularly the TRACON
   Manager, who bear responsibility for the misclassification, and thus
   underreporting, of operational errors/deviations. 26 In response to our prior
   investigation, the TRACON Manager committed to ensuring the 'proper
   investigation and accurate reporting of all operational errors/deviations. The
   evidence clearly reflects the TRACON Manager failed to fulfIll this crucial
   responsibility. We note that as a result of our last investigation, the TRACON
   Manager and two of the three TRACON Operations Managers were placed on
   performance improvement plans (called "Opportunity to Demonstrate
   Performance") for failing to abide by FAA policy regarding investigating and
   reporting operational errors. This factor should be considered in determining
   appropriate administrative action.

2. Require AOV - vice ATO-Safety - to conduct comprehensive on-site, "no-notice"
   audits at DFW TRACON to ensure accurate, straightforward investigation and
   reporting of operational errors/deviations.

3. Expedite the early deployment of TARP, a state-of-the-art automated system that
   detects losses of separation (similar to the Operational Error Detection Program in
   place at "en-route" facilities nationwide), at the DFW TRACON. DFW TRACON
   is currently scheduled to implement TARP in 2011; however, it was one of FAA's
   test facilities for TARP. Thus, the equipment is already in place.

4. Remove the Quality Assurance function at all Air Traffic Control facilities from
   the supervision of facility management, due to the inherent conflict of interest
   which creates the potential for inaccurate reporting of operational errors/deviations.

5. Conduct a top-to-bottom review of ATO-Safety's management, staffing and
   processes to ensure it provides effective internal oversight for ATO.

6. Consider appropriate administrative action for ATO-Safety officials whose failure
   to conduct required "no-notice" reviews of DFW TRACON and examine all loss-
   of-separation events, (e.g., pilot deviations), enabled TRACON management to
   again underreport operational errors/deviations.


26   We understand that, as an interim measure, FAA has detailed the DFW TRACON Manager
     and Assistant TRACON Manager to positions outside the DFW TRACON.


 Report No. CC-2007-083
                                                                                    19


7. Consider appropriate administrative action (e.g., training) for DFW and Dallas
   Love Field FSDO officials whose failure to validate pilot deviations reported by
   DFW TRACON management helped enable TRACON management to again
   underreport operational errors/deviations.

8. Examine all 38 TRACON-declared pilot deviation reports identified in our
   investigation. Where pilot deviations are determined not to be valid, rescind any
   compliance/enforcement actions against the affected pilots and expunge their
   records.

9. Reconsider selection of DFW as FAA's "Central Region Large TRACON Facility
   of the Year." The ATO-Terminal Services Vice-President publicly announced and
   presented this award to the DFW TRACON Manager during the August 2007 ATO
   National Managers' Conference, despite cognizance that we and AOV were
   investigating allegations that DFW TRACON management had again covered-up
   operational errors. Beyond the imprudence of this action, one criterion for the
   award was the number of facility operational errors. As demonstrated by our
   findings, DFW TRACON underreported operational errors for the period covered
   by this award, thereby rendering the data for this criterion invalid.

If I can answer any questions or be of further assistance, please contact me at x61959,
or Theodore Alves, Deputy Inspector General, at x66767.

                                           #




 Report No. CC-2007-083
Incident Number   Date   OE/OD Filed   h   AFSActions   Documentation I Simulation




                                                                                     ~s:
                                                                                     :c
                                                                                     m
                                                                                     z
                                                                                     -I
                                                                                     -..6.
     , Separation determined by RAPTOR. CDR Plot not available to AOV.
     "Indicates first Incident:PSWRD1005049 between EGF256 and N1902P.
I   IUnable to determine severity o{second incident due to lack of Information (raptor or
     Attachment 2 - Verified "Category A" operational errors

Our analysis substantiated the following events as Category A operational errors
(the most serious under FAA's classification system):


1) May 17, 2007

TRACON management's classification: Incident Closed as a Non-Event

AOV reviewed this event and determined that an operational error occurred
between American Eagle flight. 600 (EGF600 1) and American Airlines flight 806
(AAL806). EGF600 was vectored to runway 17 center (RY17C) on a [mal
approach course to DFW and cleared for a visual approach. The approach
controller failed to instruct the pilot to contact the tower. The tower controller
continued to clear aircraft for departure on runway 17 right (RYI7R.) When
EGF600 was approximately 2 miles out from landing, the tower controller cleared
AAL806 for tak~ off on RYI7R. AAL,806, a Boeing 757, pro~uces considerable
wake turbulence, therefore aircraft are required to be a minimum of 4 miles behind
the B757. The tower controller, not seeing EGF600, failed to issue a landing
clearance. As a result, EGF600 did not land and the pilot executed a go around.
The proper procedure for an aircraft that is executing a go around, absent ATC
instructions is to fly runway heading and initiate a climb to a safe altitude. The
tower controller's failure to issue a landing clearance to EGF600 caused a loss of
separation with the departing Boeing 757.

Separation Conformance Distances 2                   1000 ft/1.94 mi., CATEGORY A




1   Aircraft are identified throughout this report by their call signs as reflected on FAA
    documents,

2   Separation Conformance is the percentage of separation maintained at the closest
    proximity point and is calculated via a specific formula, or by using tables contained in
    FAA's Notice N IO 7210.663. Separation Distances used to classify any separation loss "'
    are written as lateral (horizontal) distance in nautical miles/vertical distance in feet,
    followed by the severity category A, B, C; or Proximity Event.
t



    2) February 13, 2006

    TRACON management's               classification:      Pilot Deviation filed        as:
    PSWRD1006017

    AOV reviewed this event and determined that based on the data available, an
    operational error occurred. The controller assigned N24D 2,500 feet and
    instructed the aircraft to maintain 2,500 feet until midfield. The controller then
    released an aircraft (N444SS) from Addison field. The controller advised N24D
    that traffic would be departing< turning eastbound and climbing to 2,000 feet.
    Based on indicated data on the radar tag, the aircraft was operating under
    instrument flight rules; this required a minimum of 1,000 foot separation between
    these aircraft. Separation reduced to 100 feet, thus an operational error occurred.

    Separation Conformance Distances: 100 feetl.97 miles CATEGORY A


    3) February 15, 2006

    TRACON management's               classification:      Pilot   Deviation    filed   as
    PSWRDl006022

    AOV reviewed this event and determined an operational error occurred.
    Continental Airlines 215 (C0A215) and American Eagle flight 845 (EGF845)
    were both vectored for visual approaches from the northeast. C0A215 was
    vectored for runway 17 center· (RY17C) and EGF845 to runway 17 left (RY17L)
    The controller cleared EGF845 for a visual approach. The controller then cleared
    C0A215 for a visual approach and informed the pilot of the position of EGF845.
    C0A215 did not report EGF845 in sight. Absent the pilot reporting the preceding
    aircraft in sight; and receiving instructions to follow, or maintain visual separation;
    controllers are responsible for ensuring that separation is maintained between
    aircraft. COA215 turned towards the airport bringing him closer to EGF845. The
    controller failed to ensure compliance with FAA Order 7110.65, paragraph 7-4-
    4.b.2. When C0A215 was cleared for the visual approach, the pilot had the option
    to tum towards the airport and to descend, resulting in a loss of separation and an
    operational error.

    Separation Conformance Distances: 0 ftI.64 miles CATEGORY A
